No. 19-90
IN THE

LEXINGTON H-L SERVICES, INC.,
D/B/A LEXINGTON HERALD LEADER,
v.

Petitioner,

LEXINGTON-FAYETTE URBAN COUNTY GOVERNMENT,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MOTION FOR LEAVE TO FILE BRIEF AS AMICI
CURIAE AND BRIEF OF CNHI, LLC, DALLAS
MORNING NEWS, INC., DOW JONES & COMPANY,
GANNETT CO., INC., GATEHOUSE MEDIA, LLC,
LOS ANGELES TIMES COMMUNICATIONS LLC,
NATIONAL NEWSPAPER ASSOCIATION,
NEWS MEDIA ALLIANCE, THE PHILADELPHIA
INQUIRER, LLC, THE REPORTERS COMMITTEE
FOR FREEDOM OF THE PRESS, AND TRIBUNE
PUBLISHING COMPANY, LLC AS AMICI CURIAE
IN SUPPORT OF PETITIONER

August 2019

Kurt Wimmer
Counsel of Record
Rafael Reyneri
COVINGTON & BURLING LLP
850 Tenth Street N.W.,
Washington, DC 20001
(202) 662-6000
kwimmer@cov.com
Counsel for Amicus Curiae

(Additional counsel listed on inside cover)

Matthew Gray
CNHI, LLC
445 Dexter Avenue
Montgomery, AL 36104

Christine E. Larkin
DALLAS MORNING NEWS, INC.
1954 Commerce St.
Dallas, TX 75201

Jason Conti
Craig Linder
DOW JONES & COMPANY
1211 Avenue of the Americas
New York, NY 10036

Tom Curley
GANNETT CO., INC.
7950 Jones Branch Drive
McLean, Virginia 22107

Garrett J. Cummings
GATEHOUSE MEDIA, LLC
175 Sully’s Trail, 3rd Floor
Pittsford, NY 14534

Jeff Glazer
LOS ANGELES TIMES
COMMUNICATIONS LLC
2300 E. Imperial Highway
El Segundo, CA 90245

Suzanne Mitchell Parillo
THE PHILADELPHIA
INQUIRER, LLC
801 Market St.
Suite 300
Philadelphia, PA 19107

Bruce D. Brown
Katie Townsend
Gabe Rottman
THE REPORTERS COMMITTEE
FOR FREEDOM OF THE
PRESS
1156 15th St. NW, Suite 1020
Washington, DC 20005

Karen H. Flax
TRIBUNE PUBLISHING
COMPANY, LLC
160 N. Stetson Avenue
Chicago, IL 60601

1
IN THE

LEXINGTON H-L SERVICES, INC.,
D/B/A LEXINGTON HERALD LEADER,
Petitioner,
v.
LEXINGTON-FAYETTE URBAN COUNTY GOVERNMENT,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MOTION OF CNHI, LLC, DALLAS MORNING
NEWS, INC., DOW JONES & COMPANY,
GANNETT CO., INC., GATEHOUSE MEDIA, LLC,
LOS ANGELES TIMES COMMUNICATIONS LLC,
NATIONAL NEWSPAPER ASSOCIATION,
NEWS MEDIA ALLIANCE, THE PHILADELPHIA
INQUIRER, LLC, THE REPORTERS COMMITTEE
FOR FREEDOM OF THE PRESS, AND
TRIBUNE PUBLISHING COMPANY, LLC FOR
LEAVE TO FILE BRIEF AS AMICI CURIAE

Amici curiae CNHI, LLC, Dallas Morning News,
Inc., Dow Jones & Company, Gannett Co., Inc.,
GateHouse Media, LLC, Los Angeles Times
Communications
LLC,
National
Newspaper
Association, News Media Alliance, The Philadelphia
Inquirer, LLC, The Reporters Committee for Freedom
of the Press, and Tribune Publishing Company, LLC

2
hereby seek leave, pursuant to the Court’s Rule 37.2,
to file the attached brief as amici curiae in support of
Petitioner Lexington H-L Services, Inc., d/b/a
Lexington Herald Leader.
Petitioner has consented to the filing of this brief.
Respondent Lexington-Fayette Urban County
Government has not consented to the filing of this
brief. Respondent did not provide a reason for
withholding consent. Correspondence reflecting the
parties’ respective positions has been lodged with the
Clerk.
Amici have substantial knowledge of, and
experience dealing with, the issues presented in this
case. They include some of the most widely read
newspapers in this country as well as the leading
trade
associations
representing
newspapers.
Accordingly, amici understand the on-the-ground
impact that laws such as the ordinance at issue here
have on newspapers.
Amici offer this brief to highlight the intertwined
historical roots of newspapers and the First
Amendment as well as the business environment that
news publications face. Taken together, these facts
make clear that this case presents an important
opportunity for the Court to correct the Sixth Circuit’s
error.

3
For the foregoing reasons, amici respectfully
request leave to file the attached brief.
Respectfully submitted,
Kurt Wimmer
Counsel of Record
Rafael Reyneri
COVINGTON & BURLING LLP
850 Tenth Street, N.W.
Washington, DC 20001
(202) 662-6000
kwimmer@cov.com
August 2019

Counsel for Amici Curiae

i
TABLE OF CONTENTS
INTEREST OF AMICI CURIAE ................................ 1
STATEMENT .............................................................. 5
ARGUMENT ............................................................... 6
I.

The History of the First Amendment Is
Inextricably Intertwined with the Freedom
of Newspapers to Inform the Public. ............... 6

II.

Driveway Delivery Is a Traditional and
Long-Accepted Method of Newspaper
Delivery. .......................................................... 10

III.

The County’s Ordinance is not Narrowly
Tailored to Accomplish its Interest and it
Bars the Only Feasible Means by Which
the Community News May Be
Disseminated. ................................................. 13

CONCLUSION .......................................................... 17

ii
TABLE OF AUTHORITIES
Page(s)
Cases
City of Cincinnati v. Discovery Network,
Inc., 507 U.S. 410 (1993) ........................................ 7
City of Ladue v. Gilleo,
512 U.S. 43 (1994) ................................................ 14
Distribution Sys. of Am., Inc. v. Village
of Old Westbury,
862 F. Supp. 950 (E.D.N.Y. 1994) ......... 7, 9, 10, 12
Grosjean v. Am. Press Co.,
297 U.S. 233 (1936) ........................................ 5, 7, 8
Ex Parte Jackson,
96 U.S. 727 (1877) .................................................. 6
Jobe v. Catlettsburg,
409 F.3d 261 (6th Cir. 2005) ................................ 12
Lovell v. City of Griffin, Ga.,
303 U.S. 444 (1938) ................................................ 7
Martin v. City of Struthers, Ohio,
319 U.S. 141 (1943) .............................................. 11
Multimedia Publ’g Co. of S.C. v.
Greenville-Spartanburg Airport
Dist., 991 F.2d 154 (4th Cir. 1993) ........................ 7

iii
New Jersey Citizen Action v. Edison
Twp., 797 F.2d 1250 (3d Cir. 1986) ..................... 14
New York Times Co. v. United States,
403 U.S. 713 (1971) ................................................ 9
The News & Observer Publ’g Co. v.
Raleigh-Durham Airport Auth.,
612 F.3d 301 (4th Cir. 2010) .................................. 8
The News and Observer Publ’g Co. v.
Raleigh-Durham Airport Auth.,
597 F.3d 570 (4th Cir. 2010) .................................. 7
Statesboro Publ’g Co. v. City of
Sylvania, 271 Ga. 92 (1999)................................. 15
Other Authorities
Michael Barthel, Despite Subscription
Surges for Largest U.S. Newspapers,
Circulation and Revenue Fall for
Industry Overall, PEW RESEARCH
CENTER (Jun. 1, 2017) .......................................... 16
THE ECONOMIST, Small-Town American
Newspapers Are Surprisingly
Resilient (Jun. 23, 2018) ..................................... 16
Riley Griffin, Local News Is Dying, and
It’s Taking Small Town America
With It, BLOOMBERG (Sept. 5, 2018), ..................... 9

iv
PEW RESEARCH CENTER, Average
Circulation of Alt-Weekly
Newspapers (June 13, 2018) ................................ 16

1
INTEREST OF AMICI CURIAE
Amici curiae CNHI, LLC, Dallas Morning News,
Inc., Dow Jones & Company, Gannett Co., Inc.,
GateHouse Media, LLC, Los Angeles Times
Communications
LLC,
National
Newspaper
Association, News Media Alliance, The Philadelphia
Inquirer, LLC, The Reporters Committee for Freedom
of the Press, and Tribune Publishing Company, LLC
are leading newspapers and trade associations
representing the interests of newspapers. 1
CNHI, LLC is one of the nation’s largest local
newspaper groups—serving communities in the
Midwest, Southwest, Southeast, and Northeast with
news and advertising content in newspapers,
magazines, websites, and specialty products. CNHI,
LLC is made up of more than 100 local newspapers
and websites in 22 states, including 68 dailies and
more than 40 non-dailies.
Established in 1885, The Dallas Morning News is
Texas’ leading newspaper and the flagship newspaper
and media subsidiary of A. H. Belo Corporation. It has
received nine Pulitzer Prizes since 1986, as well as
No counsel for a party authored this brief in whole or in part,
and no person or entity other than amici or their counsel made a
monetary contribution intended to fund the preparation or
submission of this brief. Because the parties have not consented
to the filing of this brief, amici have filed a motion for leave to
file the brief. The parties’ correspondence has been lodged with
the Clerk.
1

2
numerous other industry awards recognizing the
quality of its investigative and feature journalism,
design and photojournalism.
Dow Jones & Company (“Dow Jones”) is a global
provider of news and business information. Dow Jones
has produced journalism of unrivaled quality for more
than 130 years and today has one of the world’s
largest newsgathering operations. Dow Jones
publishes The Wall Street Journal and a suite of
additional publications and products, including
Factiva, Barron’s, MarketWatch, Mansion Global,
Financial News, Dow Jones Risk & Compliance, and
Dow Jones Newswires. Dow Jones is a division of
News Corp.
Gannett Co., Inc. (“Gannett”) is a leading news and
information company which publishes USA TODAY
and more than 100 local media properties. Each
month more than 125 million unique visitors access
content from USA TODAY and Gannett’s local media
organizations, putting the company squarely in the
Top 10 U.S. news and information category.
GateHouse Media, LLC’s (“GateHouse Media”)
mission is to deliver high quality and trusted
journalism, products and services that enrich the
communities they serve. GateHouse Media is one of
the largest publishers of locally-based media in the
United States. As of June 2019, GateHouse Media
publishes 154 daily newspapers, 654 community
publications, and more than 612 local market
websites that reach more than 21 million people each

3
week. Its publications can be found in 39 states and
612 markets.
Los Angeles Times Communications LLC is the
largest metropolitan daily newspaper circulated in
California. The Times’ popular news and information
website, www.latimes.com, attracts audiences
throughout California and across the nation. Los
Angeles Times Communications LLC is wholly owned
by NantMedia Holdings, LLC.
The National Newspaper Association (“NNA”) is a
134-year old trade association for small market
community newspapers. Its members are typically
family-owned businesses publishing weekly, semiweekly or community dailies.
The News Media Alliance (“NMA”) is a 132-year
old trade association representing nearly 2,000
newspapers and their multiplatform businesses in the
United States and Canada. NMA members include
daily newspapers, as well as community newspapers,
other print publications and digital products.
The Philadelphia Inquirer, LLC is the publisher of
The Philadelphia Inquirer, the Philadelphia Daily
News, and Inquirer.com.
The Reporters Committee for Freedom of the Press
is an unincorporated nonprofit association. The
Reporters Committee was founded by leading
journalists and media lawyers in 1970 when the
nation’s news media faced an unprecedented wave of

4
government subpoenas forcing reporters to name
confidential sources. Today, its attorneys provide pro
bono legal representation, amicus curiae support, and
other legal resources to protect First Amendment
freedoms and the newsgathering rights of journalists.
Tribune Publishing Company, LLC is one of the
country’s leading media companies. The company’s
daily newspapers include the Chicago Tribune, New
York Daily News, The Baltimore Sun, Sun Sentinel
(South Florida), Orlando Sentinel, Hartford Courant,
The Morning Call, the Virginian Pilot and Daily
Press. Popular news and information websites,
including www.chicagotribune.com, complement
Tribune Publishing’s publishing properties and
extend the company’s nationwide audience.
Amici include newspapers with both paid and free
circulation, so they have a particular interest in laws
that seek to regulate how print material—solicited or
unsolicited—is delivered to their readers. Consumer
trends and technological change have presented
enormous challenges to the revenue models of
newspapers around the country.
Free local newspapers rely on advertising to
support their news coverage, and often cannot afford
expensive methods of delivery (such as mail) and must
rely on delivery to driveways to reach their audience.
That is why laws like the ordinance at issue here,
which would make delivery more expensive,
jeopardize the very existence of these newspapers. In
misapplying
the
Court’s
First
Amendment

5
jurisprudence and upholding the constitutionality of
the ordinance, the Sixth Circuit’s ruling threatens the
livelihood of local news publications, and ultimately
threatens the production and distribution of local
news in communities.
STATEMENT
Courts have long recognized that newspapers play
a central role in fulfilling the promise of the First
Amendment. “A free press stands as one of the great
interpreters between the government and the people,”
the Supreme Court declared in Grosjean v. American
Press Co., 297 U.S. 233, 250 (1936). “To allow it to be
fettered is to fetter ourselves.” Id. Effective
governance requires an active and informed citizenry.
Newspapers provide their communities with facts
about their government, serve as a forum for debate
on issues of the day, and give citizens the tools they
need to participate in their democracy.
But for any of that to happen, the newspapers
must reach their readers. This case concerns a method
of distribution common to free and paid newspapers
across the country: driveway delivery. Indeed, for as
long as Americans have had driveways, newspapers
have been delivered to them. The Lexington-Fayette
County (the “County”) ordinance prohibiting the
delivery of unsolicited newspapers to driveways would
make delivery of The Community News costprohibitive. In so doing, it would silence an important
source of community news for no valid reason, at a

6
time when local news is retrenching across the
country.
The district court erred in its decision to deny a
permanent injunction halting the enforcement of the
ordinance. The Sixth Circuit also erred in declining to
rehear the merits of Petitioner’s First Amendment
claims. In that decision, the Sixth Circuit diverged
from a long line of cases recognizing the importance of
newspapers’ ability to inform the citizenry without
unnecessary and burdensome prior restraints. The
First Amendment protections that attach to
newspapers derive from this country’s revolutionary
history and exist to preserve an informed citizenry.
These protections should not be discarded so lightly.
This case is an important vehicle through which
the Court may reaffirm its settled jurisprudence on
the appropriate scrutiny applied to government limits
on free speech.
ARGUMENT
I.

The History of the First Amendment Is
Inextricably
Intertwined
with
the
Freedom of Newspapers to Inform the
Public.

Courts have routinely proscribed efforts to
regulate distribution as an abridgment of First
Amendment protections. “Liberty of circulating is as
essential to [freedom of expression] as liberty of
publishing; indeed, without the circulation, the

7
publication would be of little value.” Ex Parte Jackson,
96 U.S. 727, 733 (1877); see also Multimedia Publ’g
Co. of S.C. v. Greenville-Spartanburg Airport Dist.,
991 F.2d 154, 158 (4th Cir. 1993) (“[T]he First
Amendment protects distribution as well as
publication” of newspapers). Indeed, without the
ability for speakers to reach their audience,
guarantees of free speech and a free press would be
but empty platitudes.
Consistent with the First Amendment, courts have
invalidated a series of laws and practices that have
the effect of suppressing speech. Courts have
prohibited airport authorities from banning
newspaper racks in airport terminals, The News and
Observer Pub. Co. v. Raleigh-Durham Airport Auth.,
597 F.3d 570 (4th Cir. 2010); Multimedia Pub. Co.,
991 F.2d at 156; struck down as unconstitutional a
special tax on newspapers for selling advertisements,
Grosjean v. Am. Press Co., 297 U.S. 233, 250 (1936);
invalidated a city ordinance requiring written
permission from the city manager to distribute
“literature of any kind,” Lovell v. City of Griffin, Ga.,
303 U.S. 444 (1938); found unconstitutional a town
ordinance that banned the distribution of unsolicited
written material, Distribution Sys. of Am., Inc. v.
Village of Old Westbury, 862 F. Supp. 950 (E.D.N.Y.
1994); and held that a ban on newsracks for
publications that were largely commercial “cannot be
squared with the dictates of the First Amendment.”
City of Cincinnati v. Discovery Network, Inc., 507 U.S.
410, 431 (1993).

8
Newspapers, in particular, lie at the heart of the
First Amendment. “Publications like newspapers are
near the First Amendment’s core; the Framers in fact
thought to mention the press.” The News & Observer
Publ’g Co. v. Raleigh-Durham Airport Auth., 612 F.3d
301, 302 (4th Cir. 2010), denial of rehearing en banc
(Wilkinson, J., concurring). The Framers specifically
protected the press because of their experience in
seeing the British attempt to muzzle the press and
criticism of the Crown through a stamp tax and tax on
advertisements,
commonly—and
accurately—
referred to at the time as “taxes on knowledge.” See
Grosjean, 297 U.S. at 246. The taxes had, “and were
intended to have, the effect of curtailing the
circulation of newspapers.” Id.
Recognizing “an untrammeled press as a vital
source of publication information,” the Supreme Court
observed:
The newspapers, magazines, and other
journals of the country, it is safe to say,
have shed and continue to shed, more light
on the public and business affairs of the
nation than any other instrumentality of
publicity; and since informed public opinion
is the most potent of all restraints upon
misgovernment,
the
suppression or
abridgment of the publicity afforded by a
free press cannot be regarded otherwise
than with grave concern. Id. at 250. “Both
the history and language of the First
Amendment support the view that the

9
press must be left free to publish news,
whatever the source, without censorship,
injunctions, or prior restraints.”
New York Times Co. v. United States, 403 U.S. 713,
717 (1971) (Black, J., concurring).
Nowhere is the importance of a free press more
indispensable to the edification of the populace than
in local news, such as the Herald-Leader and The
Community News. Local newspapers and news
sources provide the citizenry with what is often their
only source of information about local politicians,
including the very politicians that drafted this
ordinance. Any attempts by government to silence the
speech of local publications should be viewed with
particular skepticism as the effect—intended or
otherwise—is to silence the primary voice of their
potential critics. 2
It must further be emphasized that whether a
publication is unsolicited or not does not determine
whether it is worthy of First Amendment protections.
In Distribution Systems of America, 862 F. Supp.
at 961, the court struck down a town ordinance that
See Riley Griffin, Local News is Dying, and it’s Taking Small
Town America With It, BLOOMBERG (Sept. 5, 2018),
https://www.bloomberg.com/news/articles/2018-09-05/localnews-is-dying-and-it-s-taking-small-town-america-with-it
(“Without journalists digging through property records or
attending city council meetings, looking for official wrongdoing
and revealing secret deals, local politicians will operate
unchecked—with predictable consequences.”).
2

10
made it unlawful to distribute “unsolicited print or
other written materials” to the homes of residents who
had filed a notice with the town clerk stating that they
did not wish to receive such materials. The court
found the ordinance was “inimical to the freedom of
the press,” and noted that “the more prudent
approach is for the government to refrain from
paternalistically acting on behalf of the community,
and to put the decision for rejecting and discarding the
unwanted newspaper or leaflet where it belongs, on
the recipient.” Id. Indeed, here, the opt-out option
offered by The Community News has done just that—
put the decision as to whether to receive the
publication on the recipient, rather than allowing
county officials to make that call for all county
residents.
II.

Driveway Delivery Is a Traditional and
Long-Accepted Method of Newspaper
Delivery.

By longstanding tradition, the arrival of a
newspaper has been announced with a thud in the
driveway or at a doorstep, followed by the home’s
resident (or, perhaps, a well-trained dog) emerging
from the house to retrieve the paper. Distributing a
newspaper to a home “is basically compatible with the
normal activity surrounding a person’s front door,
porch and mailbox area.” Distribution Systems of
America, 862 F. Supp. at 957. As the Court has noted,
“[f]or centuries it has been a common practice in this
and other countries for persons not specifically invited
to go from home to home and knock on doors or ring

11
doorbells to communicate ideas to the occupants.”
Martin v. City of Struthers, Ohio, 319 U.S. 141, 141
(1943). “Freedom to distribute information to every
citizen wherever he desires to receive it is so clearly
vital to the preservation of a free society that, putting
aside reasonable police and health regulations of time
and manner of distribution, it must be fully
preserved.” Id. at 146–47. Distributing speech via a
driveway is no different, and indeed less intrusive,
than the traditional door knockers who distribute
literature directly to the residents of a home.
A town’s interest in preserving aesthetics or
preventing litter will not suffice to curtail reasonable
expressive activities. The Martin Court noted that the
First Amendment freedom “embraces the right to
distribute literature, and necessarily protects the
right to receive it.” Id. at 143 (citation omitted).
Furthermore, “[t]he privilege may not be withdrawn
even if it creates the minor nuisance for a community
of cleaning litter from its streets.” Id. While time,
place, and manner restrictions may apply, the
examples of such restrictions given by the Court were
of “a man with a communicable disease . . .
distribut[ing] leaflets on the street,” or an individual
going inside a church to distribute literature “against
the will of church authorities.” Id. Restricting
newspapers to only hand-delivery in precise, predefined locations is a far cry from the permissible
time, place, and manner restrictions envisioned by the
Court.

12
Distributing a newspaper to a driveway, whether
tossed by a paper carrier on a bicycle or an individual
in a vehicle, is immortalized in American culture. In
Jobe v. City of Catlettsburg, the Sixth Circuit
considered a very different means of distribution in
upholding a city ordinance prohibiting individuals
from placing leaflets on car windshields. 409 F.3d 261,
262 (6th Cir. 2005). The court’s decision relied in part
on the fact that “[n]either by tradition nor by design”
did Jobe’s choice of distribution “occupy a place in the
long-accepted traditions of leafletting” and that his
leafletting directly onto individuals’ cars while they
were parked in a parking lot did not “readily allow the
recipient to opt out.” Id. at 274. Here, the longaccepted tradition of newspaper delivery is tossing a
bundle of papers onto a driveway. Moreover, The
Community News has an established, proven process
for allowing individuals to opt out of receiving the
paper.
The Community News is far from the only free
newspaper to employ this method of distribution. Free
newspapers in California, Florida, Michigan, North
Carolina, Pennsylvania, the District of Columbia, and
elsewhere all rely on home delivery to reach their
audiences. Americans expect and are accustomed to
receiving material both solicited and unsolicited at
their doorsteps and in their driveways. As the
Distribution Systems of America court noted, “The
streets of a village and a person’s doorstep, although
residential in nature, have been traditionally devoted
to various expressive activities.” 862 F. Supp. at 957.

13
It is no secret that the newspaper industry has
suffered significant declines in revenue since the
recession that began in 2008. As newspapers struggle
to contain costs while continuing to provide their
communities with the local news they need to be
informed, they cannot afford to invest in costly new
delivery methods such as those proposed by the
Lexington-Fayette Urban County Government.
Driveway delivery has allowed newspapers to
efficiently and cost-effectively reach their readers for
decades.
The loss of that method of delivery would mean the
loss of numerous voices in communities that need
them.
III.

The County’s Ordinance is not Narrowly
Tailored to Accomplish its Interest and it
Bars the Only Feasible Means by Which
the
Community
News
May
Be
Disseminated.

The practical effect of the County’s ordinance is to
silence the speech of The Community News and any
other similar papers that seek to follow in its wake.
See Transcript, R. 39, Page ID ## 460–61 (noting that
compliance with the Ordinance would double the
Herald-Leader’s costs and “have the effect of ending
all delivery service of The Community News.”).
Newspapers carriers around the country deliver
newspapers from cars, and simply cannot leave their
automobiles to deposit a newspaper directly on a
reader’s front porch. Routes and carriers would be

14
required be added, at increased cost and complexity to
an aspect of publishing that is already the most
expensive line-items on a newspaper’s budget, at a
time when the industry is under unprecedented
economic stress.
The methods for delivery left to newspapers under
the ordinance do not allow for reasonable means of
distribution. A county cannot limit the speaker or
publisher to methods of delivery that are prohibitively
expensive. See City of Ladue v. Gilleo, 512 U.S. 43, 57
(1994) (“Even for the affluent, the added costs in
money or time [of alternative prescribed means of
expression] may make the difference between
participating and not participating in some public
debate”); New Jersey Citizen Action v. Edison Twp.,
797 F.2d 1250, 1261–62 (3d Cir. 1986) (finding
possible alternatives to door-to-door canvassing
inadequate where they were “either ‘much more
expensive,’ or significantly less effective.” (internal
citations omitted)).
The County’s ordinance sets a dangerous
precedent by prescribing the only means by which
certain speech may be conveyed. By limiting
distribution to only the enumerated means—without
consideration of cost or feasibility—the ordinance
would effectively serve to silence the speech of The
Community News. While the County cites The
Community News as a primary source of the blight
the ordinance seeks to curtail—namely litter strewn
across yards and clogging sewers—the ordinance
would capture far greater speech within its

15
proscriptions. See Statesboro Publ’g Co. v. City of
Sylvania, 271 Ga. 92, 94 (1999) (finding a similar
ordinance unconstitutional that “bans a substantial
amount of speech that residents may want to hear”
including “the neighborhood newsletter that warns
residents about recent burglaries in the area.”). For
example, this would also capture local yellow pages,
political flyers, and other forms of unsolicited written
materials designed to inform the public about their
community and government.
Amici do not quarrel with the County’s goal of
reducing litter and, in fact, strongly support it.
Rather, amici ask the Court to require them to strive
for this goal in a manner that does not risk impeding
speech or the right of the community to receive such
speech. In fact, the Herald-Leader already ceases
delivery of a newspaper if there is already one in the
driveway from a previous delivery to prevent
unwanted build-up of papers in the community. See
Pet. App. 5a. In this respect, the Herald-Leader takes
affirmative steps—at an added cost—to achieve the
very same goals the County’s ordinance purports to
achieve.
Even without additional impediments to
circulation, local weekly papers have faced a steady
decline in circulation. The Pew Research Center
reports that between 2016 and 2017 circulation of

16
local “alt-weeklies” declined by ten percent. 3
Additionally, this decline in circulation has been
matched by an equally sharp ten percent decline in
advertising revenue, tightening the purse straps on
an already struggling industry. 4 With these numbers
it comes as no surprise that “America has lost a fifth
of its newspapers since 2004.” 5 At this rate, any
additional burden imposed by the County threatens to
stifle the already weakening voice of local news media.
Governments around the country would do better
to create an environment where local news can thrive,
rather than develop ways to constrict local news
coverage to the point of non-viability. To some, the
facts of this case may seem too simple to merit the
Supreme Court’s review. But local news publications,
especially those provided for free, are as vital to civic
life all across America’s towns and cities as any
national news outlet. And the First Amendment is
PEW RESEARCH CENTER, Average Circulation of Alt-Weekly
Newspapers (June 13, 2018), https://www.journalism.org/
chart/sotnm-newspapers-alt-weekly-newspaper-averagecirculation/.
3

Michael Barthel, Despite Subscription Surges for Largest U.S.
Newspapers, Circulation and Revenue Fall for Industry Overall,
PEW
RESEARCH
CENTER
(Jun.
1,
2017),
http://www.pewresearch.org/fact-tank/2017/06/01/circulationand-revenue-fall-for-newspaper-industry/.

4

THE ECONOMIST, Small-Town American Newspapers Are
Surprisingly
Resilient,
(Jun.
23,
2018),
https://www.economist.com/united-states/2018/06/23/smalltown-american-newspapers-are-surprisingly-resilient.
5

17
only as strong as the weakest voice it protects. The
Court is best placed to correct the Sixth Circuit’s
error, and in so doing, reinforce its established
jurisprudence on the narrow tailoring required of
government restrictions on freedom of the press.
CONCLUSION
For the foregoing reasons, as well as the reasons
set forth in the Petition for Certiorari, amici
respectfully request that the Court grant the petition
for a writ of certiorari.
Respectfully submitted,
Kurt Wimmer
Counsel of Record
Rafael Reyneri
COVINGTON & BURLING
LLP
850 Tenth Street N.W.,
Washington, DC 20001
(202) 662-6000
kwimmer@cov.com

